<html>
<title> - EMPOWERING THE INSPECTORS GENERAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                   EMPOWERING THE INSPECTORS GENERAL

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 1, 2017

                               __________

                           Serial No. 115-11

                               __________

Printed for the use of the Committee on Oversight and Government Reform









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


















         Available via the World Wide Web: http://www.fdsys.gov
                      https://oversight.house.gov
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-357 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                        
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia
Steve Russell, Oklahoma
Glenn Grothman, Wisconsin
Will Hurd, Texas
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                    William McKenna, General Counsel
    Katie Bailey, Government Operations Subcommittee Staff Director
                      Jack Thorlin, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 1, 2017.................................     1

                               WITNESSES

The Hon. Michael E. Horowitz, Inspector General, U.S. Department 
  of Justice, CIGIE Chair
    Oral Statement...............................................     7
    Written Statement............................................    10
The Hon. Kathy A. Buller, Inspector General, Peace Corps, CIGIE 
  Legislation Committee Executive Chair
    Oral Statement...............................................    15
    Written Statement............................................    17
The Hon. Scott S. Dahl, Inspector General, U.S. Department of 
  Labor
    Oral Statement...............................................    23
    Written Statement............................................    25
The Hon. John Roth, Inspector General, U.S. Department of 
  Homeland Security
    Oral Statement...............................................    31
    Written Statement............................................    33

 
                   EMPOWERING THE INSPECTORS GENERAL

                              ----------                              


                      Wednesday, February 1, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Duncan, Issa, Jordan, 
Sanford, Gosar, DesJarlais, Farenthold, Meadows, DeSantis, 
Ross, Blum, Hice, Grothman, Hurd, Palmer, Comer, Mitchell, 
Cummings, Maloney, Norton, Lynch, Connolly, Kelly, Lawrence, 
Watson Coleman, Plaskett, and Demings.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized declare a recess at any time.
    I want to thank everybody for being here. This is, as we 
kick off the 115th Congress, we're doing as we had done in the 
114th Congress, and having our first major full committee 
hearing with our inspectors general. We cannot thank you enough 
for the great work that you do. In fact, we have a packed 
audience here. Indulge me here for a moment, while those that 
are testified to stay seated. But if you're part of that 
inspector general community, either as staff or the inspector 
general, if you could please stand for a moment, I'd like to 
recognize those of you. Oh, very good. Thank you, thank you, 
thank you, on behalf of all of us that serve here. Thank you 
for your service and your interest.
    And we want you to know how deeply valued you are and the 
work that you do. One of my greater fears is that you do all 
this work, and that we're not doing enough to make sure that 
we're paying attention to it, and that we're actually acting on 
it.
    You know, we're not only the Oversight Committee, but we're 
also the Government Reform Committee. So we want to be able to 
take that good work that you do, and translate it into action 
that actually helps solve the problems, so you're not 
continuing to look at the same problem year, after year, after 
year. That should be such a flashing red light for this 
committee in everything that they do.
    The inspectors general are embedded into the Federal 
Government to protect taxpayers. And they are really the first 
line of defense against waste, fraud and abuse, nonpartisan, as 
patriots, to understand what's happening in the bowels of this 
large bureaucracy.
    In the fiscal year 2015, it's estimated that the inspectors 
general saved roughly $37 billion annually with just the budget 
of $2.7 billion. That's a pretty good rate of return, and a 
pretty good evidence that the money we spend in the inspector 
general community is certainly worth the effort.
    The--again, this is the first committee, but--the first 
hearing, and as I kind of get into it the details of some of 
this, I want to address something that did pop up in the news. 
There was a mistake that was made where a junior member of the 
transition team left a message. I'm not sure if it--I know it 
was on at least one person's voicemail, I don't know if it was 
on all of your voicemails, saying that you're working on a 
temporary basis. That was later clarified by a more senior 
person that that was not the case. I think as Inspector General 
Horowitz will say, and I want to let you know, that I've spoken 
with the general counsel at the White House on this topic. I 
think it is safe to say that that was a mistake. They wish it 
hadn't happened. It is not their approach. It's not their 
intention.
    As I said to--mentioned in a committee hearing yesterday, I 
had an opportunity to visit with the President when he visited 
us in Philadelphia last week. It was a very brief conversation, 
but he thanked me for the work that we are doing in oversight. 
He said, Continue to go doing what you're going to do. Even 
though I'm the President, you need to keep looking at the 
Federal Government, the bureaucracy. And that's the impression, 
but that's also literally what they have told me. When I spoke 
with Don McGahn, who is the White House General Counsel, he 
assured me that was not the case. And I'm glad that we got that 
clarified. We would all be concerned on both sides of the aisle 
if that was the approach that they were taking. And they 
shouldn't have done that. It was a junior person. And you need 
to let me know if you're seeing or hearing anything to the 
contrary, but I've been assured that that is not what they are 
doing.
    This was a mistake that also happened in the Obama 
administration in 2009, went to fire Mr. Walpin, then the IG 
for the Corporation of National and Community Service. That 
firing came without the President giving the legally required 
notice to Congress, and was the only IG firing by a President 
in the last 35 years. Mr. Walpin later sued saying the firing 
was retaliation for an investigation he undertook. There's--
with each new administration, I'm sure there is a learning 
curve, and hopefully, they've learned that lesson.
    I also think it's very important for the vacancies that are 
there that those are filled in a swift manner. Now, we're not 
in total control of that here in the House. We get more 
frustrations coming out of the Senate. And you can understand 
the large amount of people that have to go through that 
confirmation process from the Supreme Court Justice to cabinet 
level to others that need to go through the Senate 
confirmation. I hope that that's swift. I'm not in total 
control of that here in the House.
    Like I said, but I will do everything I can to encourage, 
and push, and say to the White House and to this administration 
it is in their best interest, their best interest, to have a 
vibrant inspector general community. People act best when they 
are having someone look over their shoulder and it protects us 
all. It protects the taxpayers; it protects the White House; 
Congress; it protects everybody. So we will take that approach 
as we do that.
    In the year 2014, 47 inspectors general sent a letter to 
this committee and to the Senate Homeland Security and 
Government Affairs Committee detailing significant access 
problems. For example, the Peace Corps inspector general, who 
is here with us, was being denied access to files related to 
sexual assault of Peace Corps volunteers and by the Peace Corps 
general counsel. Denying access to files is something I have 
fought, Chairman Issa fought before me, and we will continue to 
fight as a committee.
    In another instance, the chemical safety board told the EPA 
inspector general to not provide documents based on attorney-
client privilege, a new creative way to suggest that they 
didn't have to be open, transparent, or allowing you access to 
the information you need.
    In the last 2 years, we worked closely with Ranking Member 
Cummings to craft legislation to ensure the inspectors general 
can do their jobs. I want to thank Mr. Cummings personally for 
his steadfast support on these issues. I think we've worked 
well on them. The result of the cooperation was the IG 
Empowerment Act of 2016, which was signed into law in December. 
It took a lot of lifting to get there, but not nearly the 
amount of lifting that you do and the frustration you've been 
bumping up against for so long.
    The bill made clear that the inspectors general can only be 
denied documents based on explicit statutory prohibitions, not 
vague privileges or strained readings of other statutes. In 
addition, the Act streamlined investigation procedures, 
instituted new reporting requirements to improve transparency, 
and streamlined the investigation process to make IGs' 
operations more efficient. We will continue to support the 
inspectors general in this new Congress as these issues may 
arise again.
    One issue carried over from last Congress that should be 
addressed, again, is the vacancies. As of 2015, the average 
duration of an IG vacancy--this is the average--during the past 
administration, was 613 days, far in excess of the previous 
administrations. That's unacceptable, and we have got to work 
to speed that up. I hope the new administration makes it a 
priority to fill these vacancies and we will push them to do 
so.
    Finally, I'd like it hear from our witnesses on the process 
of criminal referrals by the inspectors general. Our IGs do 
great work conducting investigations, and many times, their 
work culminates in a referral to the Department of Justice for 
possible prosecution. There is little transparency regarding 
the volume, evaluation, or outcome of these referrals. 
Frustratingly, I have been peppering the Department of Justice 
to provide us such stats, but they are just simply--have 
stonewalled us for years during the Obama administration.
    The IG Empowerment Act attempts to increase the 
transparency by requiring reports to Congress on the referral 
data. If I know what is being referred directly to the 
Department of Justice, I, then, have a better fact pattern to 
push the Department of Justice to say, Why don't you ever 
prosecute these people? It's not good enough to say, well, just 
fire them, if you want a remedy, just fire them. But the civil 
service reform, which we're going to go through in this 
Congress, is so prohibitive on firing people, it is this 
vicious circle where the bad apples that are there causing the 
most harm often continue to sit in their seats, take income 
while harming the rest of the process, their fellow employees, 
the departments, the agencies, and ultimately, the taxpayers. 
So we would like to read more about the referral process and 
what can be done to better expose it and we will do our part to 
push the Department of Justice, or the local--whatever the 
appropriate law enforcement is to--actually prosecutors to 
actually push on this.
    I, again, want to thank you all for the great work that you 
do. You represent literally thousands of people who spend their 
lives doing this. We can't thank you enough. I appreciate you 
all attending today and thank the witnesses in particular.
    So with that, I'll now recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I thank 
you for calling this hearing.
    Let me say to all of the inspectors general and the staff 
here today, I want to thank you. As the chairman was talking, I 
thought it would be appropriate that I share with you a 
question that has come to me over, and over, and over again. 
And the question is, is when some of these issues came up, 
people have asked me about the inspectors general, they say, do 
you trust the inspectors general? And I say, yes. But the other 
question they ask is, well, if the inspector generals were 
replaced, how would you feel about that? I said, first of all, 
the people who hold these positions are people who are 
independent. And if they felt that they could not be 
independent, they would not take the positions.
    And so, I would feel comfortable with our inspectors 
general. And I want to thank you, I echo the words of the 
chairman. We trust you. We believe in you. We thank you. We 
realize that so many of you could be doing so many other jobs, 
probably making a lot more money. But you are doing the job 
that feeds your souls. And so we thank you.
    You do an extraordinary job, and we in Congress rely on you 
for exactly these reasons. The title of today's hearing is 
``Empowering the Inspectors General.'' Our committee has acted 
in a bipartisan manner under both Democratic and Republican 
leadership to promote the critical work of IGs. For example, on 
December 16th, 2016, President Obama signed into law the 
bipartisan Inspector General Empowerment Act of 2016. However, 
one thing that disempowers inspectors general is when they are 
threatened; threatened with retaliation for reporting waste, 
fraud and abuse, or even worse, threatened with termination. 
When that happens, it's up to this committee to step in, 
investigate, and protect our IGs.
    Yesterday, I sent a letter, along with vice ranking member 
of this committee, Mr. Connolly, to the White House counsel, 
Don McGahn. I raise concerns about disturbing reports that 
Trump officials threaten to remove numerous, numerous 
inspectors general after the Inauguration. This all started on 
Friday, January 13. The Trump team officials assigned to 
various Federal agencies called to inform their respective IGs 
that their positions was only, and I quote, ``temporary,'' end 
of quote.
    He also reportedly informed several IGs that they should 
begin looking for other employment. The inspectors general who 
were concerned about these calls--anonymous calls, immediately 
began contacting leaders of their organizing body, the Council 
of the Inspectors General on Integrity and Efficiency.
    As we understand it, after urgent calls all over the 
weekend, some IGs were informed that higher level officials on 
the Trump team decided to reverse this misguided action. The 
IGs were told that these calls were erroneous. They were told 
they never should have been made. If this indeed occurred, that 
would be a small relief.
    But here is why I remain concerned: You know, a lot of 
people say, you know, we ought to cross that bridge when we get 
to it. Well, ladies and gentlemen, we're at the bridge. We have 
now obtained what we believe is the email that the Trump team 
sent out to their political officials assigned to the Federal 
agencies. This email was sent after normal business hours on 
the evening of Friday, January 13. It directed Trump staffers 
to make the calls, and I quote, ``tonight,'' end of quote. In 
all capital letters and later in bold. They were instructed to 
tell the IGs that they were staying over into the Trump 
administration only, and I quote, ``on a temporary basis,'' end 
of quote.
    The email also references vetting the IGs, but does not 
explain on what basis. This email demonstrates that these calls 
were not isolated incidents. These calls were not isolated 
incidents. This was a coordinated campaign to target inspectors 
general that someone in the Trump team planned, approved, 
organized and executed across multiple agencies. The problem is 
that we still do not know who. Whoever approved these calls had 
absolutely horrendous judgment, and should not be allowed 
anywhere near the reins of power. We also still do not know who 
ultimately reversed this terrible approach. And we still have 
no official communication confirming that this reversal, in 
fact, applies to all the IGs.
    So yesterday, we wrote to the White House counsel asking 
him these questions. Most importantly, we asked for official 
confirmation that President Trump has no plans, has no plans to 
fire any IGs now that he has been sworn in.
    I ask unanimous consent that our letter be made a part of 
the official record, Mr. Chairman.
    Chairman Chaffetz. The letter, without objection, so 
ordered, but I would like to see the email, which you have not 
shared with us, I don't believe.
    Mr. Cummings. We did share it.
    Chairman Chaffetz. You just gave it to me.
    Mr. Cummings. We shared it with you early this morning.
    I also ask the committee staff conduct a transcribed 
interview of the Trump official who sent this email so that we 
can investigate this matter. We have several of IGs here today 
so we can get their accounts of what happened.
    At the broadest level, we want to make sure that every 
single inspector general has been told, in no uncertain terms, 
that their jobs are safe. Unfortunately, these actions are a 
part of a troubling pattern of misguided and politically 
motivated attacks on government watchdogs, ethics experts, law 
enforcement officials, and career government employees. And as 
I said before, they say we should cross the bridge when we get 
to, we're at the bridge.
    In December, the Trump team sent a questionnaire to the 
Energy--and listen to this--in December, the Trump team sent a 
questionnaire to the Energy Department, requesting a list of 
all individuals who took part in international climate talks 
over the past 5 years. We're at the bridge. In January, White 
House Chief of Staff Reince Priebus, issued a veiled threat to 
the Director of the Office of Government Ethics that he, quote, 
``Ought to be careful,'' end quote, in his criticism of 
President Trump's refusal to divest himself of his corporate 
ownership interests. The Director told members of this 
committee, including the chairman, that this threat made him 
feel and his department feel--he said ``it was chilling,'' end 
of quote.
    Just last week, Trump administration officials violated 
multiple Federal laws by imposing gag orders on the 
communications of Federal employees, including, in some 
instances, communications with Congress. We're at the bridge.
    Within the past few days, the White House press secretary 
stated the Trump administration's official position that any 
State Department employees who disagree with the President's 
decisions should leave the government rather than voice their 
dissent. We're at the bridge. And on Monday, after the acting 
Attorney General concluded that the President's executive order 
banning Muslims from entering the country may not be legal, the 
President fired her for saying so.
    What we are witnessing, ladies and gentlemen, simply is not 
normal. This is not normal, and we must never let it become 
normal. This is the United States of America. We have a 
Constitution. And we must be the guardians of that 
Constitution.
    And as I close, this has only been a few weeks. These 
actions cannot be tolerated by those of us who have, as our 
core mission, rooting out waste, fraud and abuse. And this 
should be something that concerns all of us. Federal employees 
fear what is happening and what may be next to come. We will 
rely on our inspectors general more now than ever.
    There was just an article in The Washington Post this 
morning, I think it was, that talked about the many employees 
who are now going to inspectors general, because they are 
afraid. And so, your jobs become very, very, very significant, 
even more significant than they've ever been, because people 
see you as the last line of defense. And I hope that all of my 
Republican and Democratic colleagues will join together in a 
bipartisan manner to support our inspectors general in their 
mission.
    And let me say this: I thank the chairman, because he has 
been one of the strongest folks on this committee to make it 
clear that we will protect whistleblowers, that we will protect 
Federal employees, that we will protect those who want to make 
our government the best that it can be. He has also been a 
strong advocate for marching forward to make sure all of us 
make this, our great Nation, a more perfect union.
    With that, I yield back.
    Mr. Issa. Mr. Chairman. Point of inquiry. I'm looking at 
the redacted version of this email, and some of the redactions 
we'd like to know more about, such as who besides the author it 
was to be copied to, and, of course, who it was sent to. Is 
there an unredacted version of this, to your knowledge, or 
maybe to the minority leader's?
    Chairman Chaffetz. We'll work with their staff to figure 
that out.
    Mr. Issa. I'd appreciate being able to see it in camera 
would be helpful as we try to correct this.
    Chairman Chaffetz. All right. Let's move on. We will hold 
the record open for 5 legislative days for any members who 
would like to submit a written statement.
    We will now recognize our panel of witnesses. We are 
pleased to welcome the Honorable Michael Horowitz, Chair of the 
Council of the Inspectors General on Integrity, Efficiency, and 
the Inspector General for the United States Department of 
Justice. We have worked closely with Mr. Horowitz through the 
years and enjoy his perspective, professionalism, and what he 
is does. We appreciate you being here, sir.
    The Honorable Kathy Buller, who is the executive chair of 
the Legislation Committee on the Council of Inspectors General 
on Integrity and Efficiency, and the Inspector General at the 
Peace Corps. She has testified here as well. We appreciate you 
being here.
    The Honorable Scott Dahl, Inspector General of the United 
States Department of Labor. Thank you, sir, for being here, as 
well as the Honorable John Roth, the Inspector General of the 
United States Department of Homeland Security, who has also 
testified a number of teams before this committee.
    As you know, pursuant to committee rules, all witnesses are 
to be sworn before they testify. So if you will please rise and 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth, so help you God?
    Thank you.
    Let the record reflect that all the witnesses answered in 
the affirmative. You know the drill. I don't need to explain 
the rules. As Trey Gowdy likes to say, when you see the yellow 
button, speed up, that's what we do when we get to a stoplight, 
that's what you need to do here, too. We will give you great 
latitude.
    Mr. Horowitz, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

             STATEMENT OF HON. MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Cummings, members of the committee. Thank you for inviting me 
to testify today. The IG community sincerely appreciates this 
committee's steadfast support over the years. And thank you, 
Mr. Chairman, Ranking Member Cummings, Congressman Meadows for 
your sponsorship of the landmark IG Empowerment Act, and for 
the committee's unyielding work in making sure it got passed.
    Congress could not have spoken louder or clearer about its 
bipartisan support for giving IGs the tools we need to do our 
important oversight work. IGs are the representatives of the 
taxpayers, making sure their money is being used efficiently 
and effectively, and that waste, fraud, abuse and mismanagement 
are rooted out. The independence of IGs is the foundation of 
our work, allowing us to conduct nonpartisan objective 
oversight. That work in fiscal year 2015, as the chairman 
noted, resulted in the IG community identifying approximately 
$26 billion in potential savings with which agency management 
agreed. And additionally, our criminal and civil cases 
identifying, or allowing agencies to receive or cover over $10 
billion. Compared to the IG community's aggregate budget of 
about $2.7 billion, the recoveries and potential savings 
represent about a $14 return on every dollar invested by the 
OIG--in the OIGs by the Congress.
    OIGs also issue recommendations to address fundamental 
issues of agency management identified in our audits and 
reviews. We appreciate the committee's interest in these 
recommendations, and as you are aware, there are, indeed, 
thousands of open recommendations across the OIG community. We 
look forward to working with the new administration to address 
them.
    Let me briefly highlight some other key issues for the 
community. First, there are numerous IG vacancies, as the 
chairman noted, and it is critical that they be filled 
promptly.Nine of 36 presidentially appointed, Senate confirmed 
IG positions are vacant. That's 25 percent of those positions. 
And the agencies--and the vacancies are at some of our largest 
agencies.
    By law, IGs must be selected without regard to political 
affiliation, and based solely on the basis of their integrity 
and demonstrated ability in certain proficiencies. Under the IG 
Act, the Council of the IGs is responsible for recommending 
candidates with exemplary qualifications for these positions.
    We look forward to continuing to fulfill this role with the 
new administration, and hope it makes filling IG vacancies a 
priority.
    Second, we're concerned about the potential impact of the 
hiring freeze. As careful stewards of taxpayer money, we fully 
appreciate and respect the importance of prudently allocating 
Federal resources. However, given our track record of returning 
to the Treasury far more money than we are budgeted, we believe 
careful consideration should be given before impacting our 
ability to root out waste, fraud, and abuse.
    OIGs were hit particularly hard during sequestration, and 
it had a significant impact on our work. We look forward to 
working with the incoming OMB Director on these issues.
    Finally, I want to discuss the importance of whistleblowers 
to our work. Whistleblowers perform an invaluable service when 
they come forward with evidence of waste, fraud, abuse, or 
mismanagement, and they never should suffer reprisal for doing 
so. They provide OIGs with critical information, and we want to 
make sure they are comfortable doing so.
    At the Council of IGs, we have created a whistleblower 
ombudsman working group to consider best practices to help us 
better address the wide range of issues related to 
whistleblowers. In my office, we're dedicating ever increasing 
resources to handle our substantially increasing docket of 
whistleblower retaliation allegations involving FBI employees, 
and employees of contractors and grant recipients.
    However, our ability to fulfill the additional 
responsibilities that recent legislation has placed on us and 
which we welcomed, requires sufficient staffing, otherwise, it 
would be difficult for us to maintain and continue our other 
oversight work as our whistleblower retaliation docket 
continues to grow.
    We look forward to working with the committee, with the 
incoming administration, the bipartisan House and Senate 
whistleblower caucuses, to address these whistleblower issues.
    Thank you, again, for the committee's strong support and 
I'd be pleased to answer any questions you may have.
    [Prepared statement of Mr. Horowitz follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Chairman Chaffetz. Thank you.
    Ms. Buller, am I pronouncing it right? I want to make sure. 
I want to say Bueller, but that's because I have watched that 
show so many times. You're now recognized for 5 minutes.

               STATEMENT OF HON. KATHY A. BULLER

    Ms. Buller. Chairman Chaffetz, Ranking Member Cummings, and 
distinguished members of committee, thank you for inviting me 
to appear before you today to discuss the important work of 
IGs. As chair of the Legislation Committee for the Council of 
Inspectors General for Integrity and Efficiency, and as one of 
the IGs whose access was denied by the agency I oversee, my 
testimony underscores our appreciation for the bipartisan 
support we receive from this committee and from Congress.
    Two years ago, I testified before this committee about the 
struggles my office faced in obtaining the information we 
needed to do our job. The former general counsel of the Peace 
Corps erroneously interpreted a law in a way that effectively 
kept my office, Congress and the American public in the dark 
about critical information regarding care provided to Peace 
Corps volunteers who experience sexual assault.
    My office was not alone. Starting in 2010, other agencies 
began denying or delaying access to information, including the 
Departments of Justice, Commerce, and Treasury, as well as the 
Chemical Safety and Hazard Investigation Board. In 2015, DOJ's 
Office of Legal Counsel issued a legal opinion that threatened 
the independence of all IGs, and challenged the access that is 
central to IG oversight. It was clear that congressional action 
was needed.
    Thanks in part to the bipartisan efforts of this committee 
and its staff, the passage of the Inspector General Empowerment 
Act restores what Congress intended, that IGs have the right to 
access all materials and documents necessary to oversee their 
agencies.
    At the Peace Corps, we have begun unwinding the damage 
caused by the access-denying policies. We are working with the 
agency to fully restore our access to the records we need to 
ensure that Peace Corps volunteers who have been sexually 
assaulted receive the care that they deserve.
    The IG Empowerment Act not only restores the IG community's 
right of unfettered access, but also provided tools to ensure 
our independence and improve our oversight authority. In 
particular, exemptions from the Computer Matching Act and 
Paperwork Reduction Act will ensure IG independence, and will 
help us more effectively prevent and detect fraud and conduct 
timely surveys without being subject to the approval from our 
agencies we oversee. In short, your bipartisan support for IGs 
has empowered inspectors general across the Federal Government.
    In my role as chair of the CIGIE Legislation Committee, I 
liaise with Congress on legislative matters that affect the IG 
committee. One role of our committee is to provide assistance 
to Congress as it considers legislation to improve IGs' ability 
to carry out the oversight mission that taxpayers and Congress 
expect.
    I want to briefly mention four priority items that the IG 
community has identified that would improve our ability to 
oversee the Federal Government: First, our community would like 
to work with Congress to protect information that can be used 
to exploit cybersecurity vulnerabilities. Our reviews, 
including reviews requested by Congress, identify weaknesses in 
Federal IT systems. This information could be a roadmap for 
those who want to do harm. While classified and law enforcement 
information is protected from public disclosure, there is no 
single protection that covers all IT security vulnerability 
information.
    Second, the IG community recommends that IGs have the 
authority to compel testimony of those subject to our 
oversight. This authority was included in a bill that passed 
this committee and the House during the last Congress. Our work 
can be substantially hampered by the inability to compel the 
testimony of witnesses who have information that cannot be 
obtained by other means.
    While this authority was not included in the bill that 
became law, we are encouraged by this committee's continued 
consideration and bipartisan support for testimony and subpoena 
authority for IGs.
    Third, removal of IG requires congressional notification at 
least 30 days before removal, providing a crucial safeguard to 
protect our independence. This safeguard can be defeated if an 
IG is placed in a paid or unpaid non-duty status, effectively 
silencing IGs without notifying Congress. The IG community 
supports additional legislative protections to IG independence 
to ensure that such personnel actions involving an IG are not 
abused.
    Finally, legislative reforms have the potential to make the 
Program Fraud Civil Remedies Act a significant tool to recover 
fraudulent expenditures for the benefit of the taxpayers. This 
act allows for recoveries in cases of small dollar fraud, or in 
cases DOJ does not accept for prosecution. If used to its full 
potential, the recoveries could be significant.
    To conclude, the IG community is grateful for the steadfast 
bipartisan support it has received from Congress and from this 
committee. We look forward to our future cooperation to ensure 
integrity and efficiency in the Federal Government.
    I would be happy to answer any questions you may have.
    [Prepared statement of Ms. Buller follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    Chairman Chaffetz. Thank you. Mr. Dahl, you're now 
recognized for 5 minutes.


                STATEMENT OF HON. SCOTT S. DAHL

    Mr. Dahl. Thank you. Good morning, Chairman Chaffetz, 
Ranking Member Cummings, and members of the committee. Thank 
you for inviting me to testify today on the work of OIGs.
    Let me begin by highlighting a stark example of the value 
of our work and the importance of OIG access to the information 
we need. In 2015, two students were killed at different 
Department of Labor Job Corps centers, both allegedly by their 
fellow students. In one case, the student was shot and killed 
in his dorm room at the St. Louis Center. In the other case, 
the student was brutally killed next to the Florida homestead 
center, resulting in the need to transfer or relocate more than 
350 students. These tragic cases, and other serious incidents, 
make clear why we have identified the safety and security at 
Job Corps centers as the top management challenge for the 
Department. Our auditors had previously analyzed Job Corps data 
that revealed some centers had failed to report and investigate 
serious misconduct, including assaults and drug abuse.
    Our current review has identified additional concerns such 
as problems with the centers interacting with law enforcement, 
inadequate camera monitoring and security staffing, and very 
limited use of employee background checks.
    Mr. Chairman, this is just one of many examples that show 
the significant impact from the work of OIG staff who 
demonstrate daily their dedication to the OIG mission of 
promoting efficiency and effectiveness in government programs, 
and of combating fraud, waste, and abuse.
    I also express our appreciation as Michael and Kathy have 
for the committee's strong support of the efforts of all OIGs 
and for addressing the barriers that exist in our work. In that 
vein, we commend the committee's bipartisan efforts towards the 
passage of the IG Empowerment Act. We are pleased that Congress 
has reaffirmed the authority of OIGs to have unfettered access 
to records. This access is essential to our work.
    Mr. Chairman, another example of the value of OIG oversight 
is in our work on the abuse and rising costs of compounding 
drug medications in the Federal Employees' Compensation Act, or 
FECA program. The cost of compounded drugs in FECA have 
skyrocketed from approximately $2 million in 2011 to nearly 
$240 million in 2016, more than a hundredfold increase 
substantially surpassing the costs of all other drugs combined.
    Our current investigations in this area have focused on 
fraud schemes involving collusion between prescribing 
physicians and dispensing pharmacies. In one case alone, the 
OIG special agents have identified potential fraud that 
involves nearly $100 million. We are also conducting a review 
of the Department's management of pharmaceuticals and all of 
its workers' compensation programs, with a particular emphasis 
on compounded drugs as well as the use of opioids.
    In addition, my office is collaborating with the IGs of 
other agencies who have faced similar problems with compounded 
drugs to identify potential fraud and how we can change the 
programs. Another area of significant concern is with the fraud 
in DOL's foreign labor certification programs, in particular, 
the H-1B program that allows for nonimmigrant employment and 
foreign workers and specialized occupations. Our agents are 
investigating schemes involving employers filing fraudulent 
applications with DOL, like owners of a New York health care 
staffing company that pled guilty last year to fraudulently 
using the program to staff medical centers with foreign nurses. 
These fraud schemes often deprive U.S. workers of available 
work opportunities.
    We also partnered with DOJ and other law enforcement 
agencies to investigate labor trafficking as part of human 
trafficking. For example, our agents investigated a Texas 
employer who was convicted last year for underpaying foreign 
workers and housing them in dangerous conditions.
    Finally, Mr. Chairman, timely access to the Department's 
data systems is an area of significant concern for my office, 
especially for systems managed by contractors. We've 
encountered lengthy delays in gaining access to these data 
systems and the Department has incurred significant increased 
costs from outsourcing this data management.
    These challenges we have identified underscore the 
importance of the committee's support for the work of the OIGs. 
We look forward to continuing our productive relationship with 
this committee and the Department and our shared goal of 
improving efficiency and effectiveness in the Department's 
programs and operations.
    I request that my full statement be entered in the record. 
And I would be pleased to answer any questions that you or 
members of the committee may have.
    [Prepared statement of Mr. Dahl follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    Chairman Chaffetz. Thank you. All of your full statements, 
written statements will be entered into the record, of course.
    The inspector general for the Department of Homeland 
Security, Mr. Roth, you're now recognized for 5 minutes.


                  STATEMENT OF HON. JOHN ROTH

    Mr. Roth. Thank you. Chairman Chaffetz, Ranking Member 
Cummings and members of the committee, thank you for inviting 
me to testify about inspector general challenges and recent 
legislative changes enacted by the Inspector General 
Empowerment Act of 2016.
    No government agency, no matter how dysfunctional, will 
change of its own accord. During my tenure as inspector general 
for DHS, I witnessed three agencies, FEMA, TSA and the Secret 
Service that have had to confront the necessity of change in 
the manner in which they do business. It is a wrenching process 
that no agency would undergo voluntarily. Change in a 
bureaucracy happens as a result of three things: a dramatic, 
intervening event, followed by intense scrutiny of agency 
programs and operations, and a result in leadership commitment 
to change.
    Independent oversight by both the inspector general and 
Congress is critical and necessary ingredient to positive 
constructive change. For example, FEMA's approach to disaster 
response changed only after Hurricane Katrina revealed the 
shortfalls in its operations; consistent IG and congressional 
scrutiny brought further analysis to the problem; and the 
administration and FEMA leadership committed to change the 
manner in which FEMA responded to these events. As we saw in 
the Superstorm Sandy response, FEMA has dramatically improved 
its response operation as a result.
    TSA was likely confronted with the need to change as a 
result of dramatic and troubling shortfalls discovered by our 
covert testing program, as well as other OIG reports about 
deficiencies in TSA's judgment of risk in relation to expedited 
screening, vetting airport employees, and managing the access 
badge program.
    It was only through IG oversight, oversight by this and 
other committees, and TSA's new leadership strongly embracing 
the message that TSA, at last, publicly acknowledged the need 
for change, and started the long road to becoming a more 
effective organization.
    Finally, as this committee well knows, the well-publicized 
protective failures by the Secret Service resulted in hearings 
and investigations by this committee, by my office, and by the 
independent protective mission panel. This oversight resulted 
in excruciating process for the examination and self-
examination, which is, by no means, over, about the manner in 
which the Secret Service does business. As a result, the Secret 
Service has taken steps to fix some of the systemic issues that 
have plagued the agency over time.
    Oversight makes the government better and fosters positive 
change. The critical and skeptical review of programs and 
operations acts as the disinfectant of sunlight to ensure a 
more efficient government. It works in conjunction with the 
Inspector General's Act requirement that IGs keep Congress 
fully and currently informed of problems, abuses, and 
deficiencies within the Department. I thank the committee for 
its leadership in championing the IG Empowerment Act, it 
supported the inspector general community, and the cause of 
vigorous and independent oversight.
    I would also take a moment to thank my staff, who is 
creative, energetic, and I am proud to lead in this effort. My 
office will continue to conduct independent oversight over 
DHS's programs and operations. Although significant progress 
has been made, the Department continues to face longstanding 
persistent challenges in overseeing and managing the homeland 
security mission. These challenges affect every aspect of the 
mission, from preventing terrorism and protecting our borders, 
transportation systems, to enforcing our immigration laws, 
ensuring disaster resiliency and securing cyberspace.
    The Department is continually tested to work this one 
entity to achieve its complex mission. The key to sustained 
games made thus far is a leadership commitment by the new 
administration and continued thoughtful but vigorous oversight 
by the Congress and my office.
    Mr. Chairman, this concludes my testimony. I'm happy to 
answer any questions of you or other members of the committee. 
Thank you.
    [Prepared statement of Mr. Roth follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Chairman Chaffetz. Thank you.
    I will recognize myself for 5 minutes.
    Mr. Horowitz, let me start with you. The testimonial 
subpoena authority is something we helped to champion. Did that 
make it into the bill and why didn't it make it in the bill?
    Mr. Horowitz. It do not make it into the bill 
unfortunately, despite the tremendous efforts of yourself and 
the ranking member in pushing it. My understanding was the 
Department of Justice continued to object to the very end. And 
in order to get the bill passed through the Senate, it had to 
be removed. And we hope and look forward to working with you 
again, and we will not walk away from the fight easily.
    Chairman Chaffetz. And, at least personally, I am going to 
help champion this and we will make another run at it again, 
but I do believe the inspectors general need the ability to 
compel testimony. We had a frustrating case where somebody was 
being approached and then they just, like on a piece of paper, 
said, I hereby resign, and handed it to somebody. Just thought 
by leaving the employee--leaving the employment of the Federal 
Government, they could just simply walk away from all this 
disaster that they had caused. I do believe that the inspectors 
general need to have the ability to compel testimony, 
particularly for those investigations that you're doing.
    Does anybody--any of the others wish to shed any light? Mr. 
Horowitz, if you can shed any light or any personal experiences 
within your purview that would illuminate this problem further?
    Mr. Horowitz. I'll just mention the two examples that are 
public in our reports, and that are of significant programs, 
are review of the FBI's handling of 702, a high-ranking FBI 
official that refused to cooperate with us because he had 
retired, and it would have been an important interview to have 
in connection with our review of the President's surveillance 
program.
    Back in 2005-2006 time period, the former attorney general 
and the former deputy AAG refused to speak with us because they 
also had left at that time. And there are--I could give you 
innumerable examples where we do our administrative work, and 
have similar situations that you've just referred to yourself, 
Mr. Chairman, which is resignations on the eve of testimony, 
and our inability then to get the evidence we need.
    Chairman Chaffetz. Yes.
    Ms. Buller. From a Peace Corps perspective, our employees 
are all term limited, so after 5 years, they time out. And so 
if we want to speak with them after that period of time, they 
are no longer a government employee. It makes our job a lot 
more difficult.
    Chairman Chaffetz. Very good.
    I really do appreciate you bringing up the idea of 
whistleblowers. In fact, later this afternoon, we have a 
hearing specifically on whistleblowers, and they do need to 
have unimpeded access to communicate, not only with the 
inspectors general, but also Members of Congress, and we take 
that very, very seriously.
    I want to just, in the last minute and a half that I have 
here, one of things we're deeply concerned about, we heard 
testimony throughout the last couple of years about sexual 
misconduct, sexual assault, the varying degrees of table of 
penalties. One of the more stark examples I like to use was 
within the Department of Justice, because if you look at the 
Department--even within the Department of Justice, they have 
different tables of penalties, different definitions. I think 
that is a congressional challenge for this committee, and 
something we do plan to address.
    If you can illuminate or shed any light on challenges on 
things you've seen that you think we should address as we try 
to deal with this problem in making sure that we get rid of 
these bad apples. Does anybody have an example or something 
they can shed some light on? Go ahead, Mr. Horowitz.
    Mr. Horowitz. As the committee is obviously aware, from our 
review on the law enforcement components of the Justice 
Department, and as the chair mentioned, we found these wide-
ranging different uses of the penalties. The terminology, we 
are about to go forward with a report about how the civil 
division handles these issues. It will again show a unique 
approach, different approach by another component of the 
Justice Department. I think one of the things that's very 
important as sexual harassment becomes something that needs to 
be addressed forcefully and clearly is coordinated, high-level 
approaches. It can't be decentralized within an agency. It 
can't be left to 30-plus components in the Justice Department 
to decide what 30 different ways they are going to approach it. 
Because the memo comes from the leadership on zero tolerance. 
And so if leadership is the one putting out that policy, and is 
expecting to create the culture, they need to look at that and 
drive that throughout the organization equally.
    Chairman Chaffetz. Thank you. My time has expired. I now 
recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you all for being here.
    Mr. Dahl, you raised two issues that really caused me to 
pay super attention, when you raised the issue about the Job 
Corps. Without getting into, you know, any confidential 
information that you can't disclose, at some point, I would 
really like to talk to you about that, because that is a 
serious problem. You may not know it, but I had a nephew who 
was brutally killed about 5 years ago, shot to death in 
Norfolk. I would just like to talk to you about the Job Corps, 
because I would like to know that young people that are going 
into the Job Corps are going to be safe.
    The other thing is the compounded drugs, 5 years now, 
Bernie Sanders and I and others had been working on the high 
price of drugs in the fraud schemes. I didn't even know you all 
got into that kind of stuff. I would really like to follow up 
on that.
    Mr. Roth, we understand that the number of inspectors 
general received the phone calls from Trump officials on 
Friday, January 13th, 2017. Some spoke directly with them, 
while others received voice mails, but the message was the 
same, the jobs were ``temporary.'' Mr. Roth, I understand that 
you received one of these phone calls. Can you tell us 
specifically who called you? Do you know?
    Mr. Roth. Yes, I got a call from the head of DHS transition 
team about 7:15 that Friday night.
    Mr. Cummings. And can you tell us what that person said?
    Mr. Roth. It's along the lines of what it is that you 
summarized, which was that I would be allowed to stay through 
the change in tran--administrations, but that that would be 
temporary in that he had assumed that I was already in the 
process of looking for another job.
    Mr. Cummings. Did the Trump official indicate they had any 
concerns about your performance?
    Mr. Roth. No, they did not.
    Mr. Cummings. And how long is your current term supposed to 
go?
    Mr. Roth. Well, I serve at the pleasure of the President, 
so I can be removed at any time by the President, with 
obviously 30 days' notice to Congress.
    Mr. Cummings. And so, were you surprised by the call? And 
what was your reaction?
    Mr. Roth. Well, yes, I was surprised by the call given sort 
of the tradition that inspectors general aren't removed from 
office typically or historically, so I immediately, of course, 
called Michael Horowitz and pulled him out of a hockey game on 
Friday night to report this information.
    Mr. Cummings. Was he playing or what?
    Mr. Roth. It was a Capitals game so I certainly hope not.
    Mr. Horowitz. Certainly not.
    Mr. Cummings. We have obtained a transcript from a 
voicemail left by a Trump official with another inspector 
general. The voicemail said, and I quote, ``I'm calling on 
behalf of the Presidential transition team to inform you that 
you are being held over on a temporary basis to continue 
working in the capacity of the inspector general following the 
Inauguration,'' end of quote.
    So that is also consistent, telling the IG that his 
position is only temporary.
    Mr. Horowitz, you are the head of the IG organizing body, 
CIGIE. Is that correct?
    Mr. Horowitz. That's correct?
    Mr. Cummings. Can you please tell us about how you learned 
about these calls?
    Mr. Horowitz. The first call I got was from Mr. Roth as I 
was sitting at the hockey game. Spoke to him from the game, 
then got word of two other IGs who had received similar, or had 
received calls that evening, I'm not sure when I knew exactly 
what they had heard. And we arranged a call for Saturday 
amongst several of us in the IG community, including the three 
IGs who got calls. Several additional individuals, Inspector 
General Buller, myself, vice chair of CIGIE, vice chair of the 
Leg committee to try to understand who got calls, who didn't 
get calls, in part, because all three IGs reported that they 
were told that all IGs were going to be getting the call, but 
when we got on the call Saturday morning, more of us who were 
on the call had not gotten calls than had gotten calls.
    Mr. Cummings. I see.
    Mr. Horowitz. So we were trying to figure out what was 
going on here and different people--the three individuals who 
got the calls got very--got sort of core information, as well 
as some other information just from the dialogue back and 
forth. And so what we really tried to do that weekend, and it 
was a holiday weekend, it was the Martin Luther King holiday 
weekend, we set about trying to figure out how could we reach 
out to transition officials to understand what was going on, 
given the calls three people got, the fact that the message was 
all IGs were going to get the call, but not all IGs general had 
gotten the call, at least at that point. And just trying to 
better understand where we were.
    Mr. Cummings. How were the IGs feeling about these calls, 
if you know, what was the sense of concern?
    Mr. Horowitz. I think it is fair to say everybody was 
concerned if not knowing more as to what was the message here. 
Was this a message like Mr. Roth got about planning to move on? 
Was it some misunderstood--we just don't know enough.
    Mr. Cummings. Would you tell us--with the chair's 
indulgence, would you tell us what happened over the next few 
days, and what did you do? What did others do? And how did you 
express this concern to the Trump team?
    Mr. Horowitz. Certainly. To be clear, I learned a lot more 
Tuesday when we came back to work, because Tuesday morning was 
the monthly IG meeting, so all IGs got together 10 a.m. On 
Tuesday morning. I did not talk about what I do it over the 
weekend, until I got to Tuesday.
    Mr. Cummings. Uh-huh.
    Mr. Horowitz. Until Monday, we learned of only the three 
calls. We reached out through the various context we each had 
on the call to people we thought who could try and connect us 
to other people to get to the Trump transition team. We didn't 
have any clear lines into higher level Trump transition folks. 
We had contacts at our agency level transition team, but we 
were clearly looking to go beyond that.
    Mr. Cummings. Sitting here today, can you tell me how many 
IGs got the call or voicemail?
    Mr. Horowitz. By Tuesday morning, after the CIGIE meeting, 
I'm guessing--and I don't have an exact number--I'm guessing 
it's upwards of six to 10.
    Mr. Cummings. Can you survey that and get that information 
back to us, if you don't mind?
    Mr. Horowitz. Yeah.
    Mr. Cummings. And Mr. Horowitz, as I close, I understand 
that someone seemed to inform at least some of the IGs that a 
decision had been overruled by higher-level officials within 
the Trump team. Who informed you of that? And what were you 
told? And I'm just curious.
    Mr. Horowitz. Yeah. So on Monday, I believe it was, we 
heard back from staff for this committee, majority staff for 
this committee that they had heard through their contacts with 
the transition team were their contacts, and the Senate 
Homeland Security and Governmental Affairs Committee contacts 
with the transition team that the call shouldn't have been 
made; it was a lower-level decision that had not been vetted at 
a higher level. That there was no plan to remove all IGs, and 
that the IGs would be getting calls--the IGs that got calls 
would be getting calls to let them know those calls shouldn't 
have been made.
    Mr. Cummings. Do you all have anything in writing saying 
that?
    Mr. Horowitz. I don't.
    Mr. Cummings. We're going to try to see if we can get you 
something in writing.
    Mr. Horowitz. If I could just add.
    Mr. Cummings. Please do.
    Mr. Horowitz. On Tuesday morning, that also on, I think 
Sunday or Monday, an IG had gotten a call from Mr. McGahn, who 
is now the White House counsel.
    Mr. Cummings. Do you know who that IG was?
    Mr. Horowitz. The IG of the Federal Election Commission who 
knew Mr. McGahn, because he had been a member of the Commission 
at one point, providing her with the same message that we had 
heard, that I had heard on, I think it was Monday, from 
majority staff. I then got a call this past Friday from Mr. 
McGahn consistent with what he had told the IG at the FEC that 
he would be reaching out to me to essentially say the same 
thing to me that he had told her on that MLK holiday.
    Mr. Cummings. We're going to try to get the IG something in 
writing, because I think it is very important that they have 
that document. When you come to people's jobs and their 
families and their welfare, but more importantly, their morale 
and their security, I think it is important that they have a 
document saying that that is simply not the case, and we'll 
work to make that happen.
    Thank you very much, Mr. Chairman, for your indulgence. I 
really appreciate it.
    Chairman Chaffetz. The gentleman from Texas, the new 
subcommittee chairman, Mr. Farenthold.
    Mr. Farenthold. Thank you, Chairman Chaffetz.
    And I want to shift to a little bit of dollars-and-cents 
questions here. Mr. Roth, I know that, in your statement, you 
draw attention to wastefulness in acquisition programs. It's 
something we hear in Congress all the time, how government 
spends a whole lot more money than it should acquiring things 
and takes longer to deploy them and delivers less capability 
than promised.
    And, obviously, you can look within the Department of 
Homeland Security, the TSA, and their puffer machines, and 
warehouses full of equipment that either doesn't work, doesn't 
get deployed, or both. What all are y'all doing to reduce waste 
in acquisition?
    Mr. Roth. Well, certainly, one of the things we're doing is 
an increased emphasis on acquisition reform and acquisition 
auditing. So that's one of the things that we really didn't 
have a capability of, say, 3 years ago. And thanks to Congress 
appropriating additional funds for more FTEs, we're able to 
actually focus on this issue more than we had before. So that's 
one aspect of what we're doing.
    The other aspect of what we are doing is to try to ensure 
legislation that will put guidelines in place for the 
Department of Homeland Security as to their major acquisitions, 
what they have to do, increased reporting, both to the IG as 
well as to Congress, to ensure that major acquisitions continue 
on track.
    But, really, our emphasis is on further auditing of these 
programs, including what we call life-cycle auditing, which is 
we don't wait until all the money is spent and then we say, 
``Well, you just wasted $1 billion on an acquisition.'' Rather, 
we go in sort of while the requirements, for example, are being 
developed and then later on during the course of the 
acquisition to ensure that it's on track.
    Mr. Farenthold. You talk about billions of dollars. There 
has been 11 years and 1.5 billion spent on an IT system for the 
U.S. Citizenship and Immigration Services, and you're still 
using a paper system there. And, actually, Homeland Security is 
one of the more tech-savvy agencies in the government. I mean, 
we see the same thing with a system--IT system in the VA.
    What's the big stumbling block in the government to being 
able to use computers that every corporation and small business 
and middle school student are able to do?
    Mr. Roth. Well, a couple things: One, the size and 
complexity of some of these projects are enormous. So when 
you're talking about the immigration system, these are, you 
know, literally millions and millions of files. The tempo, the 
operational tempo of CIS is just enormous. And I'm certainly 
not apologizing for them or excusing what it is that they do, 
because they have a paper-based system that costs----
    Mr. Farenthold. You've got the airlines that do billions of 
transactions. You've got credit card companies that are able to 
do these transactions. You've got ExxonMobil, a global 
corporation that has a reasonable IT system, but the government 
can't do it.
    Mr. Roth. Right. Well, a couple things: One is that there 
was never a structure in place to do the acquisitions 
correctly. That was the first issue. Two, the expertise--that 
is, getting the personnel who actually understand these and 
have the ability to do the acquisition--I think, has been a 
challenge. And, thirdly, the acquisition process itself in the 
government is incredibly burdensome compared to, I think, 
private industry.
    Mr. Farenthold. And I think we need to spend some time, Mr. 
Chairman, and will continue looking into how we reform that.
    And I want to give the other IGs here--I don't think any of 
you guys' agencies, with the exception of maybe Justice, has 
anywhere near the acquisition budget Homeland Security does. 
But are you seeing similar problems within acquisition of your 
department? I mean, we'll just go down the line. We'll start 
with you, Mr. Horowitz.
    Mr. Horowitz. We are doing more and more contract audits, 
and we have nowhere near the contracting that DHS does, but we 
are seeing challenges at DOJ. We saw at the FBI when we looked 
at their efforts to move to a computer-based system for 
handling all their paperwork.
    Mr. Farenthold. Peace Corps, Ms. Buller?
    Ms. Buller. Peace Corps doesn't have a large acquisition 
program, but the contracting function has always been a 
problem. It has been a management challenge for the past couple 
of years. The challenge at Peace Corps is more in line with the 
staff leaving every 2 to 3, 5 years. We have a 30-percent 
turnover rate in the Peace Corps per year.
    Mr. Farenthold. And Mr. Dahl.
    Mr. Dahl. Similar to Mr. Horowitz, we're finding problems 
with the contracting and the processes they're using for 
contracting and the approaches they're using. And we've issued 
an audit that we provided to this committee last year on using 
a time and materials contract long beyond its time and 
necessity.
    Mr. Farenthold. All right. So, finally, I see I'm just 
about out of time. Mr. Horowitz, I would challenge you to work 
within your organization. What is most helpful to us in 
Congress are some concrete recommendations of what to fix, and 
I would like to put that on your whiteboard of things to do.
    Mr. Horowitz. Absolutely, we will get you some.
    Mr. Farenthold. Thank you.
    I yield back.
    Mr. Palmer. [Presiding.] The chair now recognizes the 
gentlewoman from New York, Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    And I'd like to thank all of the panelists and thank you 
for all of your hard work. And really to build on what Blake 
Farenthold was saying, you perform really valuable work in just 
the contracting area. It's over $400 billion, the private 
contracts, and you're overseeing this system and making sure 
that it works well.
    But, recently, the President came out with a hiring freeze, 
and there's no time limit on it. So I'm just wondering how that 
is going to impact your ability to do your job, particularly 
when reports show that your job actually saves taxpayers money.
    The Council of the Inspectors General on Integrity and 
Efficiency released a report to the President in 2015 that 
provided impressive cost savings that resulted from the work of 
IGs. For example, for every dollar invested in IGs, the report 
said the government has a potential saving of $14. That's an 
incredible rate of return on investment. And I think that shows 
that freezing your departments, or freezing all of you, is 
really going to harm taxpayers.
    In 2015, the report explained that the Federal Government 
spent a total of approximately 2.7 billion on offices of IGs, 
which means that, from that investment, those offices saved our 
Federal Government approximately 35 billion.
    Mr. Buller, these are impressive numbers, correct?
    Or, anybody, do you want to comment on how the IGs have 
saved money for the taxpayers in the compounds that you have? 
And, also, what's it going to be like to have this hiring 
freeze? I mean, do we have vacant IG posts now that are not 
filled? How many are not filled? Does anyone know? And what is 
the impact of this hiring freeze?
    Mr. Horowitz. Just on the vacancies, there are nine 
vacancies of the 36, so 25 percent of the Presidentially 
appointed IG positions are vacant. There are two agency-level 
IG positions vacant, two agency-appointed IG positions that are 
vacant. And then the Architect of the Capitol position, which 
is a congressional position, is vacant. So there are 12 total 
vacancies right now in the IG community.
    In terms of the hiring freeze, it is a concern of ours. We 
were hit very hard during sequestration. It did impact our 
ability to do our work. We were pleased yesterday to see the 
guidance issued by OMB and OPM on the hiring freeze in the 
sense of acknowledging that IGs are agency heads for purposes 
of evaluating the exemptions, but that doesn't solve the 
problem entirely, obviously.
    And so we're looking forward to working with the incoming 
OMB Director, the incoming head of OPM, and figure--Congress as 
we go through the appropriation process, because you're right: 
ultimately what will happen if we are reducing and cutting 
staff and limiting our ability to do our audits is the waste, 
fraud, and abuse that we root out regularly will be impacted.
    Mrs. Maloney. Is there any place where all of the waste, 
fraud, and abuse is put together in one report of what the IGs 
have meant to the taxpayer?
    Mr. Horowitz. We do an annual report to the President of 
the United States and post it publicly.
    Mrs. Maloney. I'd like to see that annual report.
    Mr. Horowitz. We will send it to you.
    Mrs. Maloney. And I'd like to really suggest to my 
colleagues that we might look at some type of two-tiered 
approach in the hiring freeze; that, if it's an agency that is 
making the government more efficient saving taxpayers' dollars, 
as IGs do, then it should have an urgency of being filled and 
not left vacant.
    You mentioned Presidential IGs. What's the difference 
between a Presidential-appointed IG and another IG? I thought 
all IGs were treated the same. They're not?
    Mr. Horowitz. They're the same under the statute in terms 
of protections. The difference is the 36 of the 73 IGs are 
nominated by the President and have to be confirmed by the 
Senate; 37 of the 73 IGs are appointed by their agency heads. 
They don't go through Senate confirmation.
    Mrs. Maloney. Okay. Is it tied to the agency?
    Mr. Horowitz. It's tied to the agency.
    Mrs. Maloney. It's tied to the agency. I'd like to see a 
list of which----
    Mr. Horowitz. We can do that.
    Mrs. Maloney. --for the committee. I think the committee 
would like to see which are Presidential and which are not.
    My time has expired, and I thank you very much for the work 
that you do for our country. I love the Peace Corps. Okay.
    Mr. Palmer. The chair now recognizes the gentleman from 
Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Welcome.
    Mr. Horowitz, I know that you've opened up an investigation 
into the FBI's handling of the Clinton email case. As part of 
that, are you going to look into aspects of the case such as 
why a grand jury was never impaneled?
    Mr. Horowitz. We have announced the initiation. And one 
thing I do want to make clear, as we tried to make clear in our 
announcement, it is not--it covers not only what the FBI did 
but what the Department did as well. And so----
    Mr. DeSantis. Okay. So some of the concerns that have had--
and I know there have been concerns on all sides--why a grand 
jury was never impaneled, the unusual immunity agreements that 
were generated allowing some of the subjects of the 
investigation to actually appear for--as lawyers for Secretary 
Clinton, the Loretta Lynch-Bill Clinton infamous airport 
meeting, and why the Attorney General didn't recuse herself--so 
all that could potentially be looked at?
    Mr. Horowitz. Correct. That was the purpose of trying to--
--
    Mr. DeSantis. Because I think it was reported that you were 
only trying to look at the FBI. And so I'm comforted by that 
because I think they're legitimate questions on all sides, but 
if you're only going to focus on one thing when there were 
other questions--so that's good.
    Mr. Roth, you've been very upfront about trying to root out 
some of the bribery and corruption involved in the agency, 
particularly with regards to immigration and border security. 
There was a big New York Times article that came out, I think, 
just at the end of last year. That's going to be a focus of the 
administration with securing the southern border.
    So what is going on right now? Is there any update? Is this 
still a persistent problem? I know it has been a priority of 
yours. Is there anything we can do to try to address it? 
Because we spend all this time on trying to get the policy 
right, but if there's problems with implementation and then 
there's incentives for corruption, then that obviously is going 
to undermine everything we're doing.
    Mr. Roth. Right. I mean, this is definitely a high-risk 
area. Anytime that you have a Southwest border where you have, 
you know, the Mexican cartels with the kinds of resources and 
the kind of creativity that they have, certainly the sort of 
frontline defense is always going to be vulnerable. So there 
always has to be watchfulness, both by the agency itself, CBP, 
as well as Border Patrol and ICE, but also by us to oversee 
some of the overseers.
    We are, candidly, challenged by resources. We have 1 agent 
for every 2,000 employees and contractors, so it is an enormous 
challenge to be able to tackle this. I think----
    Mr. DeSantis. So more resources to your office could 
potentially save the taxpayer a greater amount of resources on 
the back end if they're being employed successfully?
    Mr. Roth. These individuals have keys to the kingdom. I 
mean literal keys to the gates that are on the Southwest 
border, so absolutely.
    Mr. DeSantis. Well, we want to work with you on that 
because this is important. I want the border secured. But I 
don't want to get into a situation where we're putting a lot of 
effort in and then we're being undermined.
    Mr. Dahl, you note in your testimony that the unemployment 
insurance program was the seventh highest amount of improper 
payments among all Federal--I think it was 3.5 billion, 
correct? Do you have any idea what the total number of improper 
payments for Federal Government-wide was for 2015?
    Mr. Dahl. For 2016, it was 144 billion, I believe, spread 
across----
    Mr. DeSantis. I think that's right. My number, I have the 
2015 number: 136.7 billion. And then I think, since 2004, the 
cumulative amount of improper payments has been over $1 
trillion. Does that sound accurate to you?
    Mr. Dahl. That's correct.
    Mr. DeSantis. So what tools can Congress provide that could 
aid in preventing some of these improper payments, because we 
talk about different waste in the government? There is a lot of 
waste. But these improper payments, I mean, that's real, real 
significant money. And we kind of do oversight over it, but I 
would like to get to a point where we're doing something so 
that it doesn't happen to begin with. So do you have any 
recommendations for us?
    Mr. Dahl. Certainly. I think one of the tools that we 
needed you provided us in the IG Empowerment Act, and that is 
relief from the Computer Matching Act that allows us now to 
take data in one agency and match it against data in another 
agency to provide investigative leads or even program integrity 
leads to the Department. And I think that's going to help us a 
lot----
    Mr. DeSantis. Have you seen results yet?
    Mr. Dahl. Well, we just got the authority, and so we're 
exploring avenues to do that in my agency, and I know others 
are doing it as well. And I think that that will assist us.
    This is--you know, even for our unemployment insurance, 
improper payments, the level of improper payments has remained 
the same for years and even after we've done audits and 
multiple investigations. And I think sometimes the program 
fixes are what's necessary, and some of the vulnerabilities in 
the programs need to be patched. And we've made recommendations 
to the Department to fix those, and I think with help from 
Congress in----
    Mr. DeSantis. Do those require legislation, or can they be 
done by the agencies?
    Mr. Dahl. Both.
    Mr. DeSantis. Okay. Well, keep us posted. I'm getting out 
of time. But keep us posted on the implementation. We want to 
make sure that's working. And then if the agency is not taking 
the action, if there's things we can do here, I know the 
committee would be interested in helping you guys out. Thank 
you.
    Mr. Dahl. Thanks.
    Mr. Palmer. Before I go to the next member, I want to 
recognize myself for a followup on that in regard to the 
improper payments. Having looked into that--I think it was in 
2015 where we had the $130-something billion in improper 
payments--60 billion of that were improper payments to 
hospitals related to Medicare. Are you looking into that? Is 
that something the IG's Office is looking into?
    Mr. Dahl. Yeah. The IG's Office from Health and Human 
Services, that is a primary mission that they have, and they 
are working on that. Dan Levinson, the IG, just spoke about 
that recently and the efforts that he's making to beat down 
those numbers. And that is the primary driver for the improper 
payments, and yes.
    Mr. Palmer. There's another 17 billion of improper payments 
related to Medicaid, which would involve the States as well. 
Are you looking into that?
    Mr. Dahl. And he is--his office is looking into that and 
spending a considerable amount of time on that issue.
    Mr. Palmer. The chair now recognizes the gentleman from 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, I want to thank you for your willingness to 
testify this morning, and thank you for all the work that you 
do and the people behind you, the work that they do.
    We have obtained what we believe is an email from the Trump 
team to their political officials ordering them to make a round 
of calls to their assigned agencies telling the IGs that their 
jobs are only temporary. That's up on the board. I don't know 
if we could blow that up a little bit, but I'll read it anyway 
for those who can't read it off the screen.
    The email was sent on January 13, 2017, at 6:36 p.m. It is 
from someone on the Presidential transition team, and it is to 
the transition, quote, ``team leads.'' Mr. Horowitz, do you got 
any idea who the team leads are?
    Mr. Horowitz. I am presuming it's the agency teams, given 
what I understood happened over the weekend, but I'm--obviously 
don't have any further insights.
    Mr. Lynch. So the people that the transition team assigned 
to each department, each agency?
    Mr. Horowitz. That would be my guess.
    Mr. Lynch. Okay. The subject line also quotes ``TONIGHT'' 
in capital letters. I don't know if that's blocked out. It 
might be redacted, huh. Oh, no, no, no, it's up there, on 
subject line, ``TONIGHT,'' in capital letters.
    And then it says this, and I'm going to quote from it, 
quote: ``Thank you for getting us the IG information earlier 
today so that we could vet. As a critical followup to that, 
could you please reach out tonight and inform''--and 
``tonight'' again is in bold--``and inform the IGs in your 
respective agencies that they are being held over on a 
temporary basis. Please leave a message if you don't reach 
them.''
    Has anybody else seen this email before? Anybody?
    Mr. Horowitz. I did see it sometime during that following 
week.
    Mr. Lynch. Okay. Mr. Roth, you say----
    Mr. Roth. After the fact, yes.
    Mr. Dahl. I did as well, after the fact.
    Ms. Buller. I didn't see it.
    Mr. Lynch. Okay. All right.
    Mr. Horowitz, if this email is accurate, it indicates that 
there was a coordinated campaign to call multiple IGs. And from 
your previous testimony, this was not some junior rogue 
employee working out of a sub office. This is really very 
methodical that 6 to 10 IGs got the call, that this thing went 
out, and then there's another process in retraction. Do you 
agree?
    Mr. Horowitz. I know what, you know, it says here and 
what--the calls that went out and then got----
    Mr. Lynch. Do you have any idea what the urgency was?
    Mr. Horowitz. I have no idea. I was not one, by the way, 
who got a call, just----
    Mr. Lynch. Yeah.
    Well, Mr. Roth, do you have any idea what the urgency was?
    Mr. Roth. I do not. I asked the team lead for DHS why this 
was happening, and he said he was simply passing on a message 
that he had gotten from his higher-ups.
    Mr. Lynch. Okay. The email mentions vetting the IGs. Any 
idea what that would require? I mean, under the IG statute, 
you're required to, you know, have certain skills: accounting, 
you know, legal background. Any idea what the vetting might 
require?
    Mr. Dahl. No idea.
    Mr. Lynch. Okay. Look, let me just get back to what Mr. 
Cummings talked about earlier. We've had a pattern of conduct 
here on the part of the new administration. First, they try to 
eliminate the ethics office. They put a gag order on Federal 
employees. They put a hiring freeze on employees. Energy 
Department personnel, they want to do an inquisition on anybody 
who uses science in the conduct of their business. And this ban 
on all Muslims--now it has been backed off to a few countries. 
But even, you know, U.S. citizens who are Muslims and people 
who are here legally also fell under that. And then, after the 
fact, they go back.
    But the problem is that it has this chilling effect. And I 
know that each of you--and, look, you've all been up here 
before. You're frequent flyers to this committee. We've seen 
your work. You do a great job. You know, when Mr. Madison and 
Mr. Hamilton set up this government, they put in checks and 
balances so that one person couldn't screw it all up, and we're 
going to test that system that they created over the next 4 
years.
    We need you--look, you each--and a lot of people in the 
audience today, you each took an oath of office. You took an 
oath. You took an oath to uphold the Constitution. We need you 
to do your jobs. We need you to do your jobs, not just when 
it's easy, but when you've got somebody pushing against you 
that might want something else. So we just ask you: Do your 
jobs. Do your jobs. Uphold the Constitution, and we'll get 
through this.
    Thank you. I yield back.
    Mr. Palmer. The chair recognizes the gentleman from 
California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you.
    Mr. Horowitz, good to see you again.
    Mr. Horowitz. Good to see you.
    Mr. Issa. I never had any doubt you'd be held over.
    Let me go through this.
    And, first, I want to say that I'm concerned that the 
transition team, now defunct, certainly could've done a better 
job in informing people who are--technically serve at the 
pleasure of the President that they were, in fact, going to be 
retained. And there's plenty of examples of people who got 
almost to the Inauguration Day and kept saying, ``Do I leave or 
do I stay?'' And many of them are people that wanted to stay 
and the administration wanted to keep.
    But I want to be very, very crucial in getting to the 
bottom of this because it has been alleged that this was done 
to have some sort of a chilling effect. So I just want to go 
through a couple of questions to the extent that you know, and 
anyone else can pipe in if they have better knowledge.
    I've Google'd this individual, appears to be a very junior 
person, with nothing--nothing to show anything other than 
LinkedIn and Facebook, so I can't find that this is a high-
ranking person. Do you have any opinion about whether this was 
somebody who was to have a major position of authority, or it's 
just someone sending this?
    Mr. Horowitz. To be honest, I have no idea who the person 
is or what their role was.
    Mr. Issa. Right. And I only know what Google tells me in 
this case, so it appears as though this is somebody, quite 
frankly, who was put on the transition team like hundreds of 
other people.
    The date on this is January 13, 2017. So is it fair to say 
that this person had no authority at that time because no one 
on the transition team had authority until January 20 legally?
    Mr. Horowitz. Yeah. Again, part of the issue we had on that 
Friday night and Saturday and over the weekend was trying to 
figure out what this was and who it was from because, clearly, 
there were people giving the message, as you said, ``You're 
staying or you're going.''
    Mr. Issa. Right.
    Mr. Horowitz. And we didn't know what this message was.
    Mr. Issa. Were there any IGs terminated on January 20?
    Mr. Horowitz. No.
    Mr. Issa. So 100 percent of the IG in place, both permanent 
and acting, were retained. Is that right?
    Mr. Horowitz. We're still here.
    Mr. Issa. And that's all tradition, basically. It's not 
common for mass dismissals or even minor dismissals in the IG 
community historically, right?
    Mr. Horowitz. Right, it hasn't happened in the last four 
transitions.
    Mr. Issa. Okay. So, from an action standpoint, it was 
business as usual, but technically, there was a question of 
would you or wouldn't you be held over. Is that correct?
    Mr. Horowitz. Well, because of these calls, I, again, was 
not one to get them, so I'll defer to others on that issue.
    Mr. Issa. Right. Did all of you receive confirmation other 
than this that you would be retained? No. So how did you come 
to work the next day on January 21?
    Mr. Horowitz. We just showed up.
    Mr. Issa. Well, the Monday.
    Mr. Horowitz. Right.
    Mr. Issa. You just showed up, okay.
    You know, again, I want to say that we're not going to let 
this sit here. I do want to know. Unfortunately, the one 
challenge I think we have is the transition team is now 
defunct, and we're really looking toward the future. And to 
that future, have any of you begun working with new political 
appointees yet to try to listen whether they are going to 
support the continued work of the IG and perhaps even greater?
    Mr. Roth.
    Mr. Roth. Yeah.
    Mr. Issa. You have a boss, so how's it going?
    Mr. Roth. I do have a boss, and, in fact, I met with 
Secretary Kelly on that Thursday of that first week. And he 
announced his, you know, firm support of the IG concept and me 
personally, so----
    Mr. Issa. When he was at Central Command and so on, or 
Southern Command, he had a long history of using his IGs.
    Mr. Roth. He appreciates the value that we add.
    Mr. Issa. Okay.
    Mr. Horowitz. We obviously don't have a new Attorney 
General.
    Mr. Issa. You're so close.
    Mr. Horowitz. We do have some new leadership positions in 
the Office of Attorney General, Office of Deputy Attorney 
General, and I did meet with them last Friday and engaged with 
them on some of the issues that were pending and some of the 
matters they were likely to be seeing soon from us.
    Mr. Issa. Okay. And just for the record and I think not 
just for you but for all of your colleagues, certainly, I would 
hope that every IG would feel very free to contact any member 
of this committee, including obviously the chairman, should 
there be anything that would resemble interference or inability 
to do the job.
    I have one final closing question. Since the implementation 
of the act of last year is fairly new, do any of you have 
current examples where you're still not getting information 
covered by the ``you get everything except'' and the exceptions 
are supposed to be virtually zero?
    And I know--Mr. Horowitz--I want all of your answers--but I 
know you have had a history of being blocked particularly as to 
attorneys at the Department of Justice.
    Mr. Horowitz. We have had no issues whatsoever, and there 
has been a significant change in approach.
    Mr. Issa. Excellent. Glad to hear it.
    Anyone else?
    Ms. Buller. At Peace Corps, before the former Director 
left, she put out a joint communication with me basically 
saying that we have access to everything now, including----
    Mr. Issa. Especially the assaults and harassments and the 
actual rapes and so on that historically were a problem for 
you?
    Ms. Buller. Yes.
    Mr. Issa. Mr. Dahl.
    Mr. Dahl. We've made significant progress in overcoming 
some of the delays that we were experiencing in getting access 
to records.
    Mr. Issa. Excellent. Well, the committee has done good 
work.
    Thank you, Mr. Chairman.
    I yield back.
    Mr. Palmer. The chair now recognizes the gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel.
    My friend from California wants to minimize what just 
occurred, and I understand that from his point of view. But 
there's nothing trivial about getting six or seven phone calls 
to individual inspectors general--including yourself, Mr. 
Roth--from a transition team on the eve of the inauguration all 
but warning you you're going to be replaced or could be. And 
then we saw the redacted document, and I'd love to have some 
Republican support in making sure that those redactions are 
removed and we get the actual full document, but----
    Mr. Issa. Would the gentleman--the chairman--or the ranking 
member indicated he would make it available to us. He has that.
    Mr. Connolly. Good.
    Mr. Horowitz, you're the head of CIGIE. I assume you took 
that seriously, and you saw the gravity of the issue. There was 
nothing minimal or trivial about these communications to your 
colleagues.
    Mr. Horowitz. Absolutely took it very seriously. That's why 
we worked all weekend----
    Mr. Connolly. Right.
    Mr. Horowitz. --on the holiday weekend making calls.
    Mr. Connolly. And I assume the source of your alarm wasn't 
just the personal careers of your colleagues, though that's of 
concern, but the overall impact of those communications in 
terms of the potential for politicization of the IG Office 
itself.
    Mr. Horowitz. I think it's fair to say that all of us, 
including those who got the calls, were concerned not just 
about their own positions but about the institution itself.
    Mr. Connolly. Right. And so you saw a potential threat.
    Mr. Horowitz. Correct.
    Mr. Connolly. And although the President has the power, 
because half of your colleagues serve at-will, in a sense--they 
serve at the pleasure of the President and subject to Senate 
confirmation--I will read to you the author of the Inspector 
General Act of 1978, a former colleague, Representative L.H. 
Fountain. And he said: ``It was never intended, however, that 
the inspectors general be automatically replaced on a wholesale 
basis without regard to their individual merits whenever there 
is a change in administration,'' unquote.
    Now, I know originalists don't want to pay any attention to 
legislative history, but the rest of us mere mortals, 
especially those of us who write the laws up here, actually do 
pay attention to the intent behind legislation and the words 
accompanying the introduction or passage of legislation, 
especially by the author of the legislation.
    Would you agree with that sentiment? Is that your 
understanding, Mr. Horowitz, that it was never intended to have 
a wholesale replacement even though the power technically 
certainly is there with the President?
    Mr. Horowitz. I would and would note that the only time 
that had occurred, which was in 1981----
    Mr. Connolly. Ronald Reagan.
    Mr. Horowitz. --President Reagan removed and then un-
removed several IGs, this committee, or the Committee on 
Government Operations it was then called, issued a unanimous 
report stating--for almost precisely the words that you've just 
quoted, Congressman.
    Mr. Connolly. Thank you. So there's actually history here, 
going back to 36 years, in terms of trying to make sure we're 
not politicizing or wholesale removing and replacing inspectors 
general because of the concern about perception and about 
independence of office. Is that correct, Mr. Horowitz?
    Mr. Horowitz. That's correct.
    Mr. Connolly. I didn't mean to stop you. I think you were 
going to say something.
    Mr. Horowitz. No. I just note what is important to us on 
this issue is the bipartisan unanimous support for IG 
independents----
    Mr. Connolly. Yep.
    Mr. Horowitz. --and that principle. Because everybody, I 
think, who knows the work we do understands that's the 
foundation on our work. If we don't have--if we're not 
independent, we cannot do what we're----
    Mr. Connolly. That's right.
    Speaking of which, as the head of CIGIE, a terrible 
acronym----
    Mr. Horowitz. I use Council of IGs to try and get away from 
it.
    Mr. Connolly. Only the Federal Government could come up 
with something like that, CIGIE. I go to a CIGIE meeting. We 
had a cocktail hour at CIGIE. I mean, anyway.
    Mr. Horowitz. No, no, no, we don't do that.
    Mr. Connolly. No, no, I know you don't. I thought I'd give 
you the opportunity so you could deny that.
    So one of the concerns I have, as you know, Mr. Horowitz, 
is that, exactly this: IGs have to be above partisanship, have 
to be perceived as independent and objective, cannot be tainted 
with anything. And when there is a concern it goes, 
unfortunately, from my point of view, there's very little 
accountability for anyone other than, I suppose, an agency head 
or the President with respect to IGs.
    And I wonder if you could just comment on, what are we 
doing to try to make the process when there is a concern or 
complaint filed, the process more transparent, more thorough, 
more robust, and people are held accountable?
    Mr. Horowitz. So, on that point, and I know we've had 
discussions in the past about the integrity committee and its 
operations and working on that, many of the changes that are in 
the IG Empowerment Act address those issues and the concerns 
that this committee had, other members have, and we are 
actually right now in the process of trying to make those 
changes.
    And I'll just mention, one of the issues that have come up, 
in order for some of the responsibilities to be transferred 
from the FBI, which had been the chair, to the CIGIE and the IG 
on the committee, which is now the chair, is we need to get 
certain regulations cleared so that we can create Privacy Act 
notices and all the things that we have to do. And we're trying 
to understand how the regulatory freeze will impact our ability 
to do that.
    So we're trying to move forward in that regard and look 
forward to having further discussions with you about these 
issues.
    Mr. Palmer. The chair now recognizes the gentleman from 
North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for your work.
    And to the at-large IG community, thank you so much for the 
work that you do. I can tell you that, from my side of the 
aisle, I am going to be vigilant in making sure that your work 
continues on regardless of who is at 1600 Pennsylvania Avenue. 
We have your back. We believe in your independence, and 
anything that is out there to the contrary will be fought 
vigorously in a bipartisan way. And I know that my good friend 
from Virginia and I both agree on this particular aspect.
    That being said, I want to make sure that it is clear that, 
to my knowledge, we have had no request to replace any IG, that 
there is a 30-day notice that has to be given to Congress, and 
there are zero IGs that have been noticed to Congress. Do you 
understand that, Mr. Horowitz?
    Mr. Horowitz. I do. And I also appreciated the call I got 
from Mr. McGahn on Friday making that point to me personally.
    Mr. Meadows. I'm--at the very highest levels of this 
administration, I have had a very comforting assurance that the 
work that the IGs do and have done--is not to say that the work 
that you've done, whether it's reports--I'm one of those guys 
that will stay up late and read your reports and read the 
footnotes.
    And Mr. Roth and I have talked a couple of times on some of 
the reports that he and his team have done. And so let's not 
discount the work that we've done in the past, assuming that 
the recommendations have been there, just because it's a new 
administration. I think it's important that we still follow up 
on those things.
    And so here would be my request of each one of you: As we 
look at the IP--the IG Empowerment Act, what I would like is, 
what are the two things that are creating barriers for its full 
implementation as--and I know we're very early in the process. 
But what are the two barriers that you're seeing either 
technically or legislatively or administratively in terms of 
actually implementing that?
    And then, as we start to get that, you know, anything that 
has a good intention also has components that perhaps are a 
byproduct that were not intended. Two areas that perhaps would 
be in a followup bill that could maybe either clarify or make 
life a little easier. Are all of you willing to get with the 
committee on that? All right.
    So if I were to classify the anxiety level for some in the 
IG community, would you classify it as--on a scale of 1 to 10, 
with 10 being most anxious, would you say that it's greater 
than 5? Mr. Horowitz.
    Mr. Horowitz. I think it's fair to say, now having been the 
chair of the council for a couple years, I think we're always 
anxious as a group. It's a group that has 73 very different 
opinions on everything, and I think you get 73 people coming up 
with different numbers.
    Mr. Meadows. All right. What can Members of Congress do in 
a bipartisan way to assure the IG community that not only we 
value their work but that we certainly do not want anything to 
stand in the way of you doing your work?
    Mr. Horowitz. I think the key part is a hearing like today 
for us, coming here and hearing bipartisan support for our 
work, the efforts to reach out to the incoming administration, 
including individual agency heads, to make sure they 
understand, so not just this committee but the other 
authorizing and oversight committees doing the same with each 
agency, making them clear.
    I think you have my assurance, and I think all of our 
assurances by coming here, that we stand united in fighting for 
the underlying principle of independence in this act. And we 
didn't spend years--certainly Kathy and I,--fighting our 
agencies on access issues, the FBI and DEA, testifying probably 
15-plus times, taking on those agencies because they weren't 
giving us access, to sort of hide and not come forward if 
there's efforts to push back. So we'll continue to let you know 
if we can't do our work.
    Mr. Meadows. So, real quickly, a yes or no answer, do I 
have your commitment to keep politics out of any analysis that 
you or your group does? And I'm going to go down the----
    Mr. Horowitz. Absolutely.
    Mr. Meadows. Ms. Buller.
    Ms. Buller. Absolutely.
    Mr. Dahl. Yes.
    Mr. Roth. Yes.
    Mr. Meadows. All right. Thank you. I yield back.
    Mr. Palmer. Thank you.
    The chair now recognizes the gentlewoman from New Jersey, 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you very much, and good morning 
to you. And I am sorry that I missed the beginning of the 
testimony, but I am delighted to see you here. And I want you 
to know that we support the work that you need to do, the 
resources that you need to do it, and the independence that you 
need to do it.
    I have a couple of questions. I'd like to actually speak to 
Mr. Horowitz for a moment. Mr. Horowitz, on November the 4th, 
Ranking Member Cummings and House Judiciary Committee Ranking 
Member Conyers sent you a letter after one of President Trump's 
closest and most vocal campaign advisers, Rudy Giuliani, 
acknowledged that he had obtained leaked information several 
days before FBI Director Comey's now infamous letter to 
Congress about discovering potentially relevant emails.
    Two days before Director Comey's letter, Mr. Giuliani 
stated, and I quote: ``We've got a couple of things up our 
sleeve that should turn this around.'' He also stated that, and 
I quote, ``a pretty big surprise'' was coming in 2 days, 
previewing when Director Comey sent his letter to Congress.
    During a followup interview, Mr. Giuliani confirmed this 
information and openly bragged about it. He stated, and I 
quote: ``Did I hear about it? You darn right I heard about 
it.''
    I understand that you can't speak to the specifics of your 
ongoing work at this point, but I want to ask some basic 
questions about the review's parameters. A, there is a review 
taking place, I guess?
    Mr. Horowitz. That's correct. We announced it on January 
12.
    Mrs. Watson Coleman. Thank you.
    Can you confirm that this review includes the allegations 
that the Department of Justice or the FBI personnel provided 
information directly or indirectly to outside sources?
    Mr. Horowitz. Our announcement did say that we would look 
at the allegations that FBI employees and department employees 
improperly disclosed nonpublic information, and we will further 
define the scope of that as we now go forward and look at the 
issues.
    Mrs. Watson Coleman. Thank you, Mr. Horowitz.
    Now, Mr. Giuliani has subsequently said he did not get any 
information directly from active agents. But, obviously, as a 
general matter, if active agents give information to someone 
who shouldn't have it and those people then transfer it, that's 
just as bad. If you learn that information about the FBI's 
investigation was leaked to former FBI agents who then 
potentially funneled it to others, I assume that you would need 
to speak with those former FBI agents as well.
    So my question to you is, do you have the authority to 
interview individuals outside the government if you deem that 
to be necessary? And can you assure us that the review of these 
allegations in particular will be thorough and follow the facts 
wherever they lead?
    Mr. Horowitz. On the latter, I can certainly assure you it 
will be a thorough and fulsome review. On the former, we do not 
have the authority to compel individuals who are no longer 
Justice Department employees to speak with us. We had hoped to 
have that authority. The IG Empowerment Act, that the chair, 
the ranking member, this committee supported, had that 
authority. It got removed at the last minute, over the 
objections of the Justice Department, on the Senate side, and 
the final version did not include that. We do hope to get that 
authority, but at this point, we do not have that authority.
    Mrs. Watson Coleman. So then would you take the information 
that you have and the need that you would have to interview 
individuals no longer with government to some other element in 
the Justice Department and ask that it be pursued there, or is 
there no other avenue?
    Mr. Horowitz. The only avenue for us is to make a voluntary 
request, and if individuals are willing to speak with us, we 
will have that opportunity; if individuals are unwilling to 
speak with us, there is no further way for us to compel them to 
speak with us----
    Mrs. Watson Coleman. Thank you.
    Mr. Horowitz. -- even if they have the most relevant 
information possible.
    Mrs. Watson Coleman. Thank you.
    Shortly after your announcement, Director Comey stated that 
he was grateful for the review and that the FBI will cooperate 
fully. Inspector Horowitz, will you let this committee know 
immediately if the FBI's cooperation is anything other than 
full and complete?
    Mr. Horowitz. Absolutely. And to date, we have gotten very 
strong cooperation.
    Mrs. Watson Coleman. Thank you.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Palmer. The chair thanks the gentlewoman.
    The chair recognizes the gentleman from Florida, Mr. Ross.
    Mr. Ross. Thank you, Chairman.
    And I want to thank the panel, as my colleagues on both 
sides of the aisle have, and recognize you for your dedication, 
the dignity and objectivity of your work, and hope that we can 
continue to be very supportive of you.
    Mr. Horowitz, to follow up on what my colleague Mrs. Watson 
Coleman was talking about, with regard to your investigative 
powers, oversight is so important. But holding oversight 
accountable is also so important that due process is necessary. 
And I think what you're speaking of is the deposition or 
testimony subpoena----
    Mr. Horowitz. Right.
    Mr. Ross. --power that you do not have.
    Mr. Horowitz. Right.
    Mr. Ross. So, when you present a case to the DOJ and they 
say, ``Well, there's just insufficient evidence to go before 
grand jury,'' or, ``We don't think a criminal act has been 
committed,'' and yet you know or you feel confident that it may 
have but you've been shorted, I think, your investigative 
powers, so, without regard to an appropriation, what would you 
consider to be the most important tools that you would need to 
have? Subpoena testimony? Subpoena duces tecum testimony? What 
other things procedurally would be necessary in order to 
complete your case so that due process can ensue?
    Mr. Horowitz. We have authority to subpoena documents.
    Mr. Ross. Records, right.
    Mr. Horowitz. The key is getting the subpoena authority to 
testify individuals who either are former employees or 
employees of contractors or grant recipients, because we're 
pursuing various misconduct.
    Mr. Ross. And right now you don't.
    Mr. Horowitz. And right now we don't.
    Mr. Ross. So they either submit voluntarily to an 
interview--and once they have counsel, that will never happen--
or you just try to build a substantial case through voluntary 
witnesses who are third and fourth degree in the process. Is 
that----
    Mr. Horowitz. That's correct. The only other option is, if 
it's strong enough and the Justice Department decides to open a 
grand jury investigation, the prosecutor can then issue grand 
jury subpoenas, but you need to get to that point.
    Mr. Ross. Right, you need to get to that point.
    Okay. Let me ask the panel collectively, and we'll go 
through here, one of the issues that I've had a big concern 
about is official time, time spent by Federal workers when 
they're on the clock, but they're doing union activities. I 
filed a bill for the last several sessions wanting a report 
from OPM of official time spent by Federal workers. Is this 
something that either one of you have done or have had a 
request to do in your duties? And I'll start with you, Mr. 
Horowitz.
    Mr. Horowitz. We have not had that request made of us. The 
only component in the--I think the only component in the 
Department with the union, the BOP has a union, but most of the 
other parts of the Justice Department do not have--are not 
union.
    Mr. Ross. Is that something that you would do if you were 
requested to do?
    Mr. Horowitz. What I'd like to do is consider the issue, 
talk with my auditors about it, and try and understand better 
what it would entail for us.
    Mr. Ross. They've done it in the--OPM has produced it in 
the past, but they don't do it routinely, and so that's my 
issue.
    Ms. Buller.
    Ms. Buller. We've never done one nor have we had a request 
to do it.
    Mr. Ross. Do you think it's important? Do you think that 
it's something--I mean, I don't know to what degree do you have 
union workers with the Peace Corps----
    Ms. Buller. Peace Corps does have a union, but I would have 
to check once again, as Mr. Horowitz would, to see what--how 
strong the union is and the number of members and whether or 
not there would be----
    Mr. Ross. I mean, in some cases, that's their full-time job 
is to be the union representative, and then they're being paid 
on official time to be doing that. And I just think that's a 
significant event that ought to be monitored and reported to 
the taxpayers.
    Mr. Dahl.
    Mr. Dahl. We have not received your request specifically to 
look at that either.
    Mr. Ross. And in order to have you pursue that request, 
what would--who would it have to come from? Would it have to 
come from the administration? Would it have to come from this 
committee? Would it----
    Mr. Dahl. Various sources. The committee could ask us to 
look at it. And it's something that, if we would determine that 
it's a risk for the Department and it's a problem, we would 
initiate it on our own.
    Mr. Ross. I appreciate that. Thank you.
    Mr. Roth, any----
    Mr. Roth. Same answer. We have not looked at that. I mean, 
we do have a number of Federal employee unions and Customs and 
Border Patrol, the Border Patrol----
    Mr. Ross. But nobody has ever made a request on you----
    Mr. Roth. We have not, and we have not looked at it 
independently.
    Mr. Ross. Okay. I appreciate it.
    That's all I have. I yield back. Thank you.
    Mrs. Demings. Mr. Chair.
    Mr. Palmer. The chair now recognizes the gentlewoman from 
Florida, Mrs. Demings----
    Mrs. Demings. Thank you so much.
    Mr. Palmer. --for 5 minutes.
    Mrs. Demings. First of all, I want to thank all of you for 
being here with us. And I apologize if we've already covered 
this since I was late coming into the room. I believe I heard 
you say, Mr. Horowitz, that you do not have the subpoena power 
to require retired FBI agents to come and testify. But could 
you possibly ask the chairman of this committee to subpoena a 
retired FBI employee?
    Mr. Horowitz. We wouldn't--and I don't think--we wouldn't 
go and do that. But by way of example, when we were unable in 
our Fast and Furious review to interview the former U.S. 
attorney who had resigned, we could not get the evidence. We 
actually came to this committee which had the--had subpoenaed 
the individual, and the committee agreed to share with us the 
testimony it had done of the individual's testimony. So that is 
an avenue we've used. It's obviously not the preferred avenue. 
And that only occurred because we were on parallel tracks with 
our investigations. That normally will not be the case.
    Mrs. Demings. Okay. Thank you.
    Mr. Palmer. The chair now recognizes the gentlewoman from 
the District of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I have a question regarding what appear to be violations 
already of an act that this committee has championed, 
Whistleblower Protection Act. Indeed, I note, ironically, that, 
this afternoon, we're having a hearing on 5 years of the 
Whistleblower Protection Act. That was passed unanimously by 
this committee, yet I note that there have been disturbing 
signs of the Trump administration trying to silence dissent 
among employees of the Federal Government.
    Several agencies--I note EPA and HHS in particular--have 
received gag orders that employees could not communicate with 
the public. Amazingly--and I'm going to ask the chairman if 
this committee would look into reports that employees could not 
even talk to Congress. Now, these orders appear to clearly 
violate the whistleblower laws. Are any of you currently 
investigating or planning to look into nondisclosure policies 
or directives issued by your agencies?
    Mr. Roth. We are. We've had some issues with 
whistleblowers, for example, notifying us of potential 
retaliation as a result of giving us information or giving 
someone else information. They ultimately settle their case for 
whatever they get from the agency. The agency then requires 
basically a gag order, so then we're unable to interview those 
whistleblowers.
    Because, again, our whistleblower retaliation 
investigations have two purposes: One is, of course, to make 
the whistleblower whole. But the other is to determine whether 
discipline needs to be imposed on whoever it was that did the 
retaliation.
    So I think that's a defect in the system that we have at 
DHS, and we're going to be looking at that and potentially 
writing a report about that.
    Ms. Norton. Yes.
    Any of the rest of you had any such experience?
    Mr. Horowitz.
    Mr. Horowitz. We don't have anything going on now, but 
obviously, we have authority over FBI whistleblower provisions, 
and we obviously now, in light of recent legislation, authority 
over whistleblower retaliation cases involving contractors and 
grant recipients. And we are seeing more and more of them, and 
we're handling them as they come in.
    And these are important matters, and it's important for new 
leadership in the agency to understand the scope of the 
whistleblower protections, the whistleblower laws. I think it's 
very important for incoming officials, particularly those who 
haven't been in the government before or have experience with 
Federal whistleblower laws to understand the impact of the 
Supreme Court's decision in the MacLean case in 2015 because 
that was a case that has very--could have a very significant 
impact. And even after it was released by the court in 2015, we 
found instances where some components within the Department of 
Justice didn't appreciate the impact of it, and we had to 
explain to them why it limited actions they might want to have 
taken against individuals who spoke out publicly.
    Ms. Norton. Yes, Ms. Buller.
    Ms. Buller. At the Peace Corps, we actively investigate any 
allegations of whistleblower retaliation. We've had several 
cases in the past, and we continue to aggressively pursue any 
allegation of whistleblower----
    Ms. Norton. Can I ask if any of these instances you have 
indicated are recent?
    Mr. Horowitz. We continue to get complaints in. I wouldn't 
say we have anything like what you've mentioned at DOJ at this 
point that have made news at other agencies.
    Ms. Norton. Yeah. Because the EPA and the HHS got these 
specific--got these specific orders. Now, they could chill 
people, and I'm sure there are Federal employees that are 
chilled to the bone.
    But look, for example, there's an official channel at the 
State Department. It's a dissent channel. It has been there for 
a very long time. And some State Department officials expressed 
their dissent on one of the President's executive orders, and 
the public affairs officer came forward and said they should 
either get with the program or they should go.
    Shouldn't Federal employees be concerned about such 
comments and their potential impact of using official channels, 
like whistleblower channels, if these fairly high-level State 
Department people were essentially told to shut up or get out?
    Mr. Horowitz. I'll just say: It's certainly a concern for 
me, and I know for the IG community as a whole, to ensure that 
there is no chilling effect on whistleblowers coming forward.
    Ms. Norton. So how can you do that? How can you assure? How 
can you make employees know that----
    Mr. Horowitz. Well, one of the ways we do it is through our 
ombuds programs that Congress helped create. It's very 
important for us to not only train employees within the 
Department but to train new employees joining the Department on 
the scope of the whistleblower laws and make sure they 
understand that individuals are allowed to come forward when 
they reasonably believe there are violations of laws, rules, or 
regulations, and they cannot be--there cannot be a personnel 
action, which is very broadly defined in the law, taken against 
them. People need to get whistleblower training upon coming 
into agencies, and the IG community needs to be working with 
their agencies to make sure that occurs.
    Ms. Norton. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Palmer. The chair now recognizes the gentleman from 
Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. Okay. We'll talk to you, Mr. Dahl, for a 
second. Is that okay?
    The Federal Employees' Compensation Act program spending on 
compounded drugs rose dramatically from $2 million, I think, in 
2011 to $200 million in 2016. And I think it's anticipated to 
double again last year when the final numbers are in. Have you 
looked into that issue at all?
    Mr. Dahl. Yes, we have, Congressman. And we have multiple 
investigations around the country. We're working with other 
OIGs, including Postal Service OIG that's been very active on 
this issue, and VA OIG, HHS OIG, and the Department of Defense 
OIG. In addition, we have an audit that we're doing right now 
of the rising cost of compounding and why that occurred and 
what the Department is doing to manage those costs.
    Mr. Grothman. Do you feel you can comment on it now, or you 
don't want to comment yet? I mean, going up from $2 million to 
$600 million in 5 years is kind of a dramatic thing.
    Mr. Dahl. Right. You know, it looks like that it didn't 
increase as much in 2016 as was expected, but the increase was 
still substantial enough that we are working with the 
Department to recommend programmatic fixes. They sent out a 
letter of medical necessity that require providers to complete 
now in--before they can prescribe compounded medications, and 
that appears to have had some ameliorative effect on the cost 
of compounded drugs.
    But we are--this is a very big risk that we're concerned 
about, and we're also concerned about the fact that the FECA 
program didn't see this coming until very recently.
    Mr. Grothman. Okay. Maybe this is an example of what you 
were talking about. There's apparently a tube of cream we're 
paying $32,000 or--a case for, $32,000 with a compound found in 
wine that isn't even approved by the FDA. Do you want to 
comment on that?
    Mr. Dahl. Well, in our investigations, we have found 
several of these pain creams that are used as topical creams, 
and the cost that we're getting billed for, that FECA is being 
billed for, is exorbitant, tens of thousands of dollars for one 
prescription. And we're finding in many of our investigations 
that the patients didn't know that they were receiving this, 
didn't ask for it, or didn't ask for it to be refilled.
    Mr. Dahl. And so we are concerned about that, that's one of 
the avenues we're pursuing in our investigations.
    Mr. Grothman. Good. Going to pursue. Do you think there are 
any kickbacks involved there?
    Mr. Dahl. There are. We have found kickback schemes in many 
of our investigations where the prescribing pharmacies are 
paying kickbacks to doctors, but the dispensing pharmacies are 
paying kickbacks to the doctors to prescribe these medications.
    Mr. Grothman. Any States that particularly involved in 
this, or parts of the country which have more sleazy practices 
going on?
    Mr. Dahl. I don't want to comment on what parts of the 
country might be sleazy, but we--our finding that these are 
grouped in certain geographic locations. We have investigations 
around the country, but many concentrated in Texas, in 
California, in Florida, and other States.
    Mr. Grothman. Okay. An example, a tube of cream, what 
condition would you have that they prescribe this for?
    Mr. Dahl. If they had surgery, and they have pain from the 
surgery, or they have a back disability that they would be 
going to the doctor for. There are also creams that are 
prescribed for reducing scar tissue from--following up on 
surgery.
    Mr. Grothman. $32,000 a tube?
    Mr. Dahl. That was for one of the medications, I think the 
Postal Service OIG found that. And we found multiple examples 
of--as I said, tens of thousands of dollars.
    Now, I want to note that there are certain patients and 
certain compounding medications that are--that have found to be 
beneficial. We're concerned about the ones that, as you pointed 
out, are not approved by the FDA, and may be provided to 
patients who don't have the medical necessity to have those.
    Mr. Grothman. $32,000 for a prescription, one tube and it 
might not do anything. Hmm? Kind of amazing. Well, that's why 
we're on OGR, we can just have hearings every day. We may have 
a whole hearing on that later.
    Thank you very much for giving me my 5 minutes.
    Mr. Palmer. I thank the gentleman. I now recognize myself 
for 5 minutes. I would like to get the panel's views on a 
couple of questions regarding the referral of criminal matters 
to the Department of Justice. Over the last 4 years, what's 
your estimate of how long it took the DOJ to generally respond 
to your criminal referrals? Mr. Horowitz, we'll start with you.
    Mr. Horowitz. I don't have any numbers sort of handy or 
available. I will say, we get fairly prompt attention from the 
Department, and the prosecutors we work with regularly when we 
do go to them with cases.
    Mr. Palmer. Ms. Buller, was that your experience?
    Mr. Buller. Yes, the Peace Corps is a little different, 
because we also have usually complicated questions involving 
jurisdiction, so sometimes it takes a while to work through 
those.
    Mr. Palmer. Mr. Dahl.
    Mr. Dahl. Like Mr. Horowitz, we get prompt attention from 
the U.S. Attorney's offices and from are the Department of 
Justice in our criminal referrals. We made 277 last year, and 
we had 322 convictions last year. And so we feel like across 
the country, we get great support from our work.
    Mr. Palmer. Mr. Roth.
    Mr. Roth. DOJ is highly decentralized with 94 different 
U.S. attorney's offices. I would concur with Mr. Horowitz and 
Mr. Dahl that it is generally good, but there are some areas in 
which sometimes a little extra attention needs to be paid, but 
I don't foresee this as a systemic issue.
    Mr. Palmer. Do you have pending referrals left over from 
the last administration? The nods work on TV, but----
    Mr. Horowitz. Yes.
    Ms. Buller. Yes.
    Mr. Palmer. --unless the camera is on you, so let the 
record show the panel all said yes.
    How many are over a year old? Do you have any that are over 
a year old?
    Mr. Horowitz. I don't think so. I can go back and check. 
Like I said, as a general matter, it's a fairly prompt response 
for us.
    Ms. Buller. I don't believe we have any over a year old 
either.
    Mr. Dahl. I don't believe we have one over a year, but we 
will check.
    Mr. Roth. Likewise, that would be an extreme case.
    Mr. Palmer. Let me ask you something, does the Inspector 
General's office have jurisdiction over a case in which a 
Federal agency violated an international treaty?
    Mr. Horowitz. I think if one of the department components 
violated a treaty, we presumably would have the authority to 
look at. It would have to be a Department of Justice component, 
though. And we'd probably partner with the State Department IG 
if it was an international treaty, given their expertise.
    Mr. Palmer. But you could make that referral to the 
Department of Justice?
    Mr. Horowitz. If we found issues with regard to an 
allegation of misconduct related to a set of laws, including 
the treaty, yes, we would be able to do that. I can't think of 
a situation where that's arisen for us. So that we have, as you 
know, done work with DEA agents overseas and the Department 
does have overseas representatives.
    Mr. Palmer. Thank you. Coming back to you, Mr. Horowitz, 
according to the website, there are 11 vacancies in the Federal 
agency IG offices. We covered this a little bit. These offices 
are being led by acting IGs. Do you see a benefit for having a 
permanent inspector general rather than an inspector general in 
an acting capacity?
    Mr. Horowitz. I have testified to this before. We have and 
had extraordinarily committed and dedicated acting IGs filling 
these roles. I had the experience of coming in. My agency had a 
vacancy for 15 months before I arrived. And my deputy IG did an 
extraordinary job in the middle of the access fights, by the 
way, leading our office. She did a great job. But there is an 
ability to get things done that is present when you have 
confirmed leadership. Certainly, in the presidentially 
appointed Senate-confirmed positions, but also the agency-level 
positions. There is an authority that goes with this and a 
presence, and an ability to fight for issues that I think is 
important to have when you are dealing with agency leadership, 
that they know that you have the position full-time, and you're 
not just--you're not sitting there waiting for the successor to 
show up.
    Mr. Palmer. Well, as each--many of the members on the 
committee have already expressed, we're very grateful for the 
work you do. We respect you and appreciate you. I would like to 
thank the witnesses for taking the time to appear before us 
today and for the members for their questions.
    If there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
